No. __A___
IN THE

Supreme Court of the United States
TIME WARNER CABLE, INC.; TIME WARNER CABLE, LLC; TIME WARNER
ENTERTAINMENT COMPANY, L.P.; TIME WARNER ENTERTAINMENTADVANCE/NEWHOUSE PARTNERSHIP; TWC COMMUNICATIONS LLC; and
TIME WARNER CABLE INFORMATION SERVICES (KANSAS), LLC,
Petitioners,
v.
SPRINT COMMUNICATIONS COMPANY, L.P.,
Respondent.
APPLICATION FOR A 60-DAY EXTENSION OF TIME TO FILE
A PETITION FOR WRIT OF CERTIORARI
TO THE HONORABLE JOHN G. ROBERTS, JR., CHIEF JUSTICE OF THE UNITED
STATES AND CIRCUIT JUSTICE FOR THE FEDERAL CIRCUIT:
Pursuant to Supreme Court Rule 13.5, petitioners Time Warner
Cable, Inc.; Time Warner Cable, LLC; Time Warner Entertainment
Company,

L.P.;

Time

Warner

Entertainment-Advance/Newhouse

Partnership; TWC Communications LLC; and Time Warner Cable
Information Services (Kansas), LLC (collectively, “Time Warner”)

1

respectfully request a 60-day extension of time to file a petition for a writ
of certiorari, to and including August 15, 2019. 1
The United States Court of Appeals for the Federal Circuit’s panel
decision and judgment issued on March 18, 2019 (Tab A, available at 760
F. App’x 977), replacing an initial decision issued on November 30, 2018

All parties are listed in the caption. Pursuant to Rule 29.6, petitioners
certify that Time Warner Cable, Inc. has merged out of existence.
Substantially all of Time Warner Cable, Inc.’s assets and liabilities were
transferred to TWC Newco LLC, which is now known as Time Warner
Cable LLC (“TWC LLC II”). TWC LLC II is an indirect subsidiary of
Charter Communications Holdings, LLC. Time Warner Cable, Inc. was
merged into Nina Company II, LLC, which is now known as Spectrum
Management Holding Company, LLC. Spectrum Management Holding
Company, LLC is an indirect subsidiary of Charter Communications, Inc.
1

Time Warner Cable LLC and Time Warner Entertainment Company,
L.P. merged into Time Warner Cable Enterprises LLC. Time Warner
Cable Enterprises is a direct subsidiary of TWC LLC II and an indirect
subsidiary of Charter Communications, Inc.
TWC Communications, LLC is an indirect subsidiary of Charter
Communications, Inc.
Time Warner Cable Information Services (Kansas), LLC is an indirect
subsidiary of Charter Communications, Inc.
Time Warner Entertainment-Advance/Newhouse Partnership has been
dissolved and its successor-in-interest is Time Warner Cable Enterprises.
Charter Communications, Inc. has no parent company.
Liberty
Broadband Corporation is the only publicly-held company that owns ten
percent (10%) or more of Charter Communications, Inc.
2

(Tab B). Under this Court’s Rule 13, Time Warner’s time to petition for
a writ of certiorari, absent an extension, runs to June 16, 2019. Time
Warner files this application more than 10 days before that date, and
invokes this Court’s jurisdiction under 28 U.S.C. § 1254(1).
Time Warner plans to seek review of a decision of the Federal
Circuit that raises recurring issues of national importance and injects
needless uncertainty into otherwise-settled law. For example, this Court
has long held—and repeatedly reaffirmed—that a patent owner “must in
every case give evidence tending to separate or apportion the defendant’s
profits and the patentee’s damages between the patented feature and the
unpatented features.” Garretson v. Clark, 111 U.S. 120, 121 (1884); see
also, e.g., Westinghouse Elec. & Mfg. Co. v. Wagner Elec. & Mfg. Co., 225
U.S. 604, 614-15 (1912) (if an infringing product contains numerous
components that “each may have jointly, but unequally, contributed to
the [ill-gotten] profits,” and “plaintiff’s patent only created a part of the
profits, he is only entitled to recover that part of the net gains”). Yet the
decision below fails to apply that unambiguous precedent. The Federal
Circuit

distorts and

conflicts with centuries of

apportionment

jurisprudence requiring complete apportionment, and instead authorizes

3

damages based on unapportioned end-product revenues.

Making

matters worse, the decision below also raises significant issues regarding
the admissibility of prior jury verdicts from related cases and the proper
role of 35 U.S.C. § 112(a)’s “written description” requirement.

And

because of the Federal Circuit’s unique near-monopoly on patent cases,
that court’s grave misapplication of law is likely to persist and infect all
manner of future cases unless and until this Court intervenes to bring
the Federal Circuit back in line.
Time Warner respectfully requests an extension of time to
accommodate its counsel’s other professional obligations during the time
allotted to prepare a petition for certiorari. Counsel’s obligations during
the time allotted to prepare the petition and through mid-July include (a)
preparing for and arguing five appeals in the courts of appeals; (b)
preparing and filing ten briefs in the court of appeals; and (c) various preexisting professional obligations in district court proceedings. In the
absence of an extension, those obligations will significantly impede
counsel’s ability to prepare a well-researched and comprehensive petition
that will assist the Court in evaluating the Federal Circuit’s decision.

4

Accordingly, Time Warner respectfully requests a 60-day extension
of time, to and including August 15, 2019, of the deadline to file a petition
for writ of certiorari.
May 23, 2019

Respectfully submitted,
John C. O’Quinn
Counsel of Record
Kirkla nd & Ellis LLP
1301 Pennsylvania Avenue, N.W.
Washington, D.C. 20004
(202) 389-5000

Counsel for Time Warner Cable, Inc.; Time Warner Cable, LLC; Time
Warner Entertainment Company, L.P.; Time Warner EntertainmentAdvance /Newhouse Partnership; TWC Communications LLC; and Time
Warner Cable Information Services (Kansas), LLC

5

